<html>
<title> - THE IMPACT OF COVID-19 ON VOTING RIGHTS AND ELECTION ADMINISTRATION: ENSURING SAFE AND FAIR ELECTIONS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




THE IMPACT OF COVID-19 ON VOTING RIGHTS AND ELECTION ADMINISTRATION:
                    ENSURING SAFE AND FAIR ELECTIONS

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON ELECTIONS

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               ----------                              

                             JUNE 11, 2020

                               ----------                              

      Printed for the use of the Committee on House Administration
      
      
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                       Available on the Internet:
         http://www.govinfo.gov/committee/house-administration
         
         
                             __________
                             
              U.S. GOVERNMENT PUBLISHING OFFICE                             

41-480               WASHINGTON : 2020           
         




                   COMMITTEE ON HOUSE ADMINISTRATION

                  ZOE LOFGREN, California, Chairperson
JAMIE RASKIN, Maryland               RODNEY DAVIS, Illinois, Ranking 
SUSAN A. DAVIS, California               Member
G. K. BUTTERFIELD, North Carolina    MARK WALKER, North Carolina
MARCIA L. FUDGE, Ohio                BARRY LOUDERMILK, Georgia
PETE AGUILAR, California






                            C O N T E N T S

                              ----------                              

                             JUNE 11, 2020

                                                                   Page
The Impact of COVID-19 on Voting Rights and Election 
  Administration: Ensuring Safe and Fair Elections...............     1

                           OPENING STATEMENTS

Chairperson Marcia L. Fudge......................................     1
    Prepared statement of Chairperson Fudge......................     4
Hon. Rodney Davis, Ranking Member................................     8
    Prepared statement of Ranking Member Davis...................    10

                               WITNESSES

Hon. Marcy Kaptur, Representative, Ninth District of Ohio........    13
    Prepared statement of Hon. Kaptur............................    16
Hon. Gwen Moore, Representative, Fourth District of Wisconsin....    18
    Prepared statement of Hon. Moore.............................    20
Ms. Kristen Clarke, President & Executive Director, Lawyers' 
  Committee for Civil Rights Under Law...........................    24
    Prepared statement of Ms. Clarke.............................    26
Ms. Sherrilyn Ifill, President and Director-Counsel, NAACP Legal 
  Defense & Educational Fund.....................................    47
    Prepared statement of Ms. Ifill..............................    49
Mr. Lawrence Norden, Director, Election Reform Program, Brennan 
  Center for Justice at NYU School of Law........................    60
    Prepared statement of Mr. Norden.............................    62
Mr. Mark Dimondstein, President, American Postal Workers Union...   160
    Prepared statement of Mr. Dimondstein........................   162
The Honorable R. Kyle Ardoin, Secretary of State, State of 
  Louisiana......................................................   166
    Prepared statement of Hon. Ardoin............................   168
The Honorable John H. Merrill, Secretary of State, State of 
  Alabama........................................................   171
    Prepared statement of Hon. Merrill...........................   173

                        QUESTIONS FOR THE RECORD

Ms. Kristen Clarke, President & Executive Director, Lawyers' 
  Committee for Civil Rights Under Law, responses................   199
Ms. Sherrilyn Ifill, President and Director-Counsel, NAACP Legal 
  Defense & Educational Fund, responses..........................   216
Mr. Lawrence Norden, Director, Election Reform Program, Brennan 
  Center for Justice at NYU School of Law, responses.............   245
Mr. Mark Dimondstein, President, American Postal Workers Union, 
  responses......................................................   258
The Honorable R. Kyle Ardoin, Secretary of State, State of 
  Louisiana, responses...........................................   261
The Honorable John H. Merrill, Secretary of State, State of 
  Alabama, responses.............................................   263

                   MATERIAL SUBMITTED FOR THE RECORD

Letter from 14 Secretaries of State regarding federal funding....   267
Statement of the Niskanen Center.................................   270
Statement of the Honorable Barry Loudermilk, Representative, 
  Eleventh District of Georgia, and Member of the Committee......   286
Statement, Marian K. Schneider, President, Verified Voting.......   287
Report, Preparing for Cyberattacks and Technical Problems During 
  the Pandemic: A Guide for Election Officials, Brennan Center 
  for Justice....................................................   291
Report, Preparing for Cyberattacks and Technical Problems During 
  the Pandemic: A Checklist for election Officials, Brennan 
  Center for Justice.............................................   320
Report, Waiting to Vote: Racial Disparities in Election Day 
  Experiences, Brennan Center for Justice........................   325
Letter, Matthew Weil, Director of the Elections Project, 
  Bipartisan Policy Center.......................................   360
Letter, R Street Institute.......................................   364
Letter, SPLC Action Fund.........................................   368
Statement, Matt Blaze, Professor and McDevitt Chair of Computer 
  Science and Law, Georgetown University, Rapidly Scaling Up 
  Absentee Voting in an Emergency................................   374




 
 THE IMPACT OF COVID-19 ON VOTING RIGHTS AND ELECTION ADMINISTRATION: 
                    ENSURING SAFE AND FAIR ELECTIONS

                              ----------                              


                        THURSDAY, JUNE 11, 2020

                  House of Representatives,
                         Subcommittee on Elections,
                         Committee on House Administration,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 1:04 p.m., via 
Webex, Hon. Marcia L. Fudge [Chairperson of the Subcommittee] 
presiding.
    Present: Representatives Fudge, Raskin, Davis of 
California, Butterfield, Aguilar, Davis of Illinois, and 
Loudermilk.
    Staff Present: Jamie Fleet, Staff Director; Dan Taylor, 
General Counsel; Brandon Jacobs, Legislative Clerk; Stephen 
Spaulding, Senior Elections Counsel; Sarah Nasta, Elections 
Counsel; Peter Whippy, Communications Director; David Tucker, 
Senior Counsel and Parliamentarian; Jen Daulby, Minority Staff 
Director; Tim Monahan, Minority Deputy Staff Director; Cole 
Felder, Minority General Counsel; and Veleter Mazyck, Chief of 
Staff, Rep. Marcia Fudge.
    Chairwoman Fudge. The Subcommittee on Elections of the 
Committee on House Administration will come to order.
    I welcome my fellow colleagues and Members of the Committee 
and our witnesses, and thank you for joining us for the 
Subcommittee's first official virtual hearing. I would like to 
especially thank the Members of the Committee: Mr. Butterfield; 
Mr. Davis, our Ranking Member; Mr. Aguilar; Mr. Loudermilk; and 
Mrs. Davis. Thank you so much for being with us today.
    We know that COVID-19 has altered the daily lives of all 
Americans. It has impacted our health, how we work, how we 
engage in our communities, and how we vote. It has also 
impacted how we are holding today's hearing. People are putting 
themselves at risk every day, from doctors and nurses to first 
responders, postal workers, and many others, including poll 
workers.
    Congress, however, has an option many workers do not. We 
can do our work remotely in a safe, secure, online format. The 
highest levels of the Federal Government have all recognized 
the unique circumstances of the COVID-19 pandemic by holding 
remote or virtual hearings. That includes the House and Senate, 
which have held virtual hearings like this one. It includes the 
Supreme Court, which has modified how it conducts its oral 
arguments. And it includes the executive agencies which have 
recognized the legitimacy of and the need for remote 
proceedings by participating in those conducted by Congress and 
the Supreme Court.
    As we begin, I want to remind our members and participants 
of a few things that will help us navigate this new platform. 
We are holding this hearing in compliance with the regulations 
for remote committee proceedings pursuant to House Resolution 
965.
    The fundamental nature of the hearing and our rules are 
unchanged. Generally, the Committee will keep microphones muted 
to limit background noise. Members will need to unmute 
themselves when seeking recognition or when recognized for 
their five minutes. Witnesses will need to unmute themselves 
when recognized for their five minutes or when answering a 
question, not unlike when we are in our Committee hearing room.
    Members and witnesses, please keep your camera on at all 
times. Even if you need to step away for a moment during the 
proceeding, do not leave the meeting.
    At this time, I ask unanimous consent that all Members have 
5 legislative days to revise and extend their remarks and that 
any written statements be made part of the record.
    Hearing no objection, so ordered.
    Now we turn to today's important topic. Today we will 
examine the impact of the COVID-19 pandemic on election 
administration and voters' ability to freely and safely access 
the ballot. It has become clear that access to the ballot in 
November is in jeopardy if we do not make substantial 
investments in our election infrastructure and remove the 
longstanding barriers that continue to keep far too many from 
exercising their right to vote.
    COVID-19 has tragically claimed the lives of nearly 113,000 
Americans, and there are more than 2 million confirmed cases 
nationwide. Our response must address the severity of this 
emergency.
    The general election is less than five months away, and 
many public health experts warn we could see a resurgence of 
the virus in the fall. In fact, the number of COVID cases is 
still increasing in 19 States according to the latest 
information.
    In the interim, States continue to hold primary elections, 
change election procedures to respond to the changing 
landscape, and prepare for the prospect of conducting a 
national election during a global pandemic.
    A number of States postponed their primaries while, in 
others, voters were forced to go to the polls risking their 
health for their right to vote. Worse still, in several States, 
including most recently Georgia, the number of polling places 
has been slashed, subjecting voters to hours-long lines in the 
midst of a pandemic.
    The choices made by States have varied widely. For example, 
California will send a mail-in ballot to every registered voter 
for the November election, while the Ohio State House recently 
advanced a bill that would make it harder for its citizens to 
vote in November.
    Twelve States and D.C. mailed, or will mail, absentee 
ballot applications to voters for at least the primary 
elections. At least six States expanded eligibility 
requirements to qualify for an absentee ballot. Others have 
fought expansion of absentee ballot access, exacerbating an 
already unequal voting landscape.
    Election officials are making decisions now that will 
govern how millions of Americans ultimately cast their ballot. 
During all of this confusion and uncertainty, the President is 
waging an insidious campaign to sow distrust by spreading false 
claims that vote-by-mail is ripe for fraud and threatening 
States that are expanding access to safe voting options.
    Voting by mail-in ballot is not new. The truth is, millions 
of Americans, including the President and members of his 
administration, cast a ballot by mail every election cycle with 
exceedingly rare instances of fraud. Five States already 
conduct vote-by-mail elections, according to the National Vote 
at Home Count Coalition. Oregon has mailed out more than 100 
million ballots since 2000 and had only about a dozen cases of 
proven fraud.
    States and localities undeniably have a significant role in 
carrying out elections, but Congress must not abdicate its 
responsibility. We must ensure every eligible American can 
access the ballot box without endangering their health and with 
the steadfast faith in our democratic process.
    During the many hearings held by this Committee and 
Subcommittee throughout the 116th Congress, we have explored 
issues of election administration, election security, voting 
rights and access, and protecting the integrity of our 
democracy. They all take on new and complex dimensions as 
Americans cast their ballot during a public health crisis.
    These communities most vulnerable to voter suppression now 
also disproportionately bear the impact of COVID-19. Today's 
hearing will expand upon these issues. We will hear from 
colleagues who represent districts in two States that have held 
primaries during the pandemic, as well as experts in voting 
rights, voter protection litigation, election reform, and from 
secretaries of state charged with carrying out election.
    America's postal workers are also represented at today's 
hearing. As the use of mail-in ballots increases, postal 
workers and the Postal Service have a vital role in ensuring 
all voters receive their ballots and that ballots are securely 
and timely returned.
    In March, the CARES Act included a much-needed down payment 
of $400 million to help States and local election officials 
prepare for and respond to COVID-19. However, much more is 
urgently needed.
    The House-passed HEROES Act includes a comprehensive all-
of-the-above plan to improve access to the ballot and ensure no 
voter is forced to choose between their health and voting: $3.6 
billion in additional funding to implement mail-in options and 
safe in-person voting for the November general election, no-
excuse absentee voting, expanded early voting, prepaid returned 
postage, and self-sealing envelopes, mailing all voters a 
ballot in a time of emergency, and more.
    Voting should be safe and accessible whether you choose to 
vote at home or in person. States need adequate resources and 
planning to prepare for November. There is much work to be 
done.
    I now recognize the Ranking Member for any opening 
statement he would wish to make.
    [The statement of Chairwoman Fudge follows:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    
    Mr. Davis of Illinois. Thank you, Madam Chair. It's been 
great to work with you as the lone member of the minority party 
on this Elections Subcommittee. I am really proud to be joined 
by my colleague, Barry Loudermilk, too, who is also with me on 
the House Administration Committee.
    But thank you to all of our colleagues and to those 
witnesses who are joining us today.
    As a nation, we are facing a number of crises and not just 
related to the coronavirus in elections. It is more critical 
than ever that our electoral systems are efficient, 
trustworthy, and secure.
    As a Subcommittee, we have the opportunity today to do the 
work that the American people demand of us. I am committed, as 
I have always been, to ensuring that every eligible American is 
able to freely vote.
    But I cannot surrender or dilute the sanctity of a single 
vote for changes in our laws that risk undermining the 
integrity of our elections. Unfortunately, I believe many of 
the changes proposed by the majority during this Congress would 
do just that.
    Today, as we explore how the coronavirus has and will 
continue to impact election administration, we must note that 
many of the changes proposed by the majority were proposed 
prior to the coronavirus. H.R. 1, for instance, included same-
day registration, required early voting, vote-by-mail 
expansion, and required the counting of provisional ballots, 
all items that Speaker Pelosi has once again put forward.
    Some of the proposals recently put forth have nothing to do 
with limiting the spread of the virus. For example, allowing 
unlimited ballot harvesting would likely have the opposite 
effect by placing ballot brokers in the living rooms of voters. 
Other ideas may have merit, and I welcome the opportunity to 
explore them at this hearing.
    When it comes to issues of election administration, I 
believe I have proven to be pragmatic and willing to listen to 
reason. For instance, when the National Association of 
Secretaries of State raised concerns over federally 
appropriated funds in the CARES Act, I sent a letter to 
Chairperson Lofgren expressing my willingness to explore their 
concerns.
    I have also put forward my own ideas about how to reform 
the elections process. I have introduced four separate pieces 
of legislation, along with my colleague on this call, Mr. 
Loudermilk, and the other colleague on House Administration, 
Mr. Walker, and others. I have introduced with them legislation 
that is meant to strengthen not only our elections but also the 
American's public faith in them.
    If there is a way to strengthen our democracy at the 
Federal level without trampling on the rights of our States, we 
are all for it. However, I want to be very clear about our 
policy priorities, which are informed by the work of this 
Committee over the last 18 months.
    First, live ballots should not be mailed to those who 
didn't request one. This is especially true in States like 
California where voter registration lists have not been 
maintained, leading to situations like in Los Angeles County 
where potentially 1.5 million ineligible voters sit on the 
rolls.
    Second, we must not allow nationwide unlimited ballot 
harvesting. And, finally, we must not allow ballots returned or 
postmarked after election day to be counted, nor must we allow 
ballots returned before election day to be counted early. These 
proposals risk the integrity of our elections process and are, 
frankly, irresponsible. If we can move past these items then, 
Madam Chair, you will find a willing partner in me.
    The question then is, where do we begin? Heading into the 
2020 general election, we have three priorities: One, all 
voters who choose to vote in person must be able to do so 
safely. I believe the funds included in the CARES Act have and 
will go a long way in this effort.
    Two, States that wish to expand their vote-by-mail and 
absentee operations must do so without sacrificing the security 
of the vote. This must include voter list maintenance. This one 
requirement, if enforced, could dramatically reduce the time 
many voters have to spend in line and significantly reduce the 
number of personnel needed to administer an election.
    And, three, States and the Federal Government must work 
together to ensure the American public view the 2020 election 
with legitimacy.
    Critical to all three of these priorities is vote by mail. 
I support States that are taking steps to increase their 
capacity for mail-in voting, but to presume that every State 
should or even can dramatically increase its capacity is 
ridiculous.
    Many States, including two represented today, had less than 
4 percent of voters participate in the last election through 
casting an absentee ballot. To ask that they move to primarily 
a vote-by-mail system prior to November would be to ignore the 
realities of election administration and the very real lack of 
equipment to make such a transition, some of which takes months 
to manufacture and deliver.
    Additionally, the Department of Homeland Security has 
warned States against reducing in-person voting locations in 
favor of vote-by-mail as it could have a dramatic effect on 
voter access, lines, and congestion. This is exactly what 
happened in Milwaukee where in-person voting locations were 
reduced from over 100 to just 5.
    Further, to ask State populations who have never voted by 
mail before to suddenly do so with little to no public 
education would disenfranchise these voters. Election officials 
reject almost 2 percent of ballots cast by mail for a variety 
of reasons. This is double the rate of in-person voting. If we 
want to talk voting rights, that is also a voting rights issue.
    While I do not have the time to discuss every policy 
proposal, I want to reiterate that our effort cannot and will 
not end here today. I look forward to hearing from our 
witnesses, and I yield back.
    [The statement of Ranking Member Davis follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairwoman Fudge. Thank you, Mr. Davis.
    Now we will begin our testimony. I want to just make sure 
that the panel understands that they will be recognized for 
five minutes. I will remind every witness that their entire 
written statements will be made part of the record and that the 
record will remain open for at least five days for additional 
materials to be submitted.
    A reminder to all of our witnesses, there is a timer on the 
screen. Please be sure you can see the timer and are mindful of 
the five-minute time limit.
    Our first panel we will hear from two of our colleagues who 
represent districts in States that have held primaries since 
the pandemic began. As is our custom, we will not ask our 
colleagues any questions.
    First, Representative Marcy Kaptur from the Ninth 
Congressional District of Ohio, which stretches 141 miles along 
Lake Erie's coastline from Toledo to the west side of 
Cleveland. Congresswoman Kaptur is currently the longest 
serving woman in the history of the U.S. House of 
Representatives. She currently serves as a senior member of the 
House Appropriations Committee where she chairs the 
Subcommittee on Energy and Water.
    Further, we will have Congresswoman Gwen Moore, who was 
elected to represent the Fourth Congressional District of 
Wisconsin in 2004, making her the first African American 
elected to Congress from the State of Wisconsin. Prior to 
becoming a Member of Congress, Congresswoman Moore represented 
the people of Wisconsin in the State House of Representatives 
from 1989 to 1992 and in the State Senate from 1993 to 2004. 
She is currently a Member of the House Ways and Means 
Committee.
    Ms. Kaptur, please proceed.

    STATEMENT OF THE HON. MARCY KAPTUR, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Ms. Kaptur. Thank you very much, Chairwoman Fudge and 
Ranking Member Davis, for the opportunity to address your 
important Subcommittee. You have taken a leadership role amid 
the COVID-19 epidemic, including your efforts to author in the 
HEROES Act key provisions to streamline election 
administration.
    Your Subcommittee also conducted a dynamic and thought-
provoking oversight hearing in Cleveland last year, in which I 
had the pleasure of participating. Thank you for your strong, 
continuing leadership.
    Chairwoman Fudge. Thank you.
    Ms. Kaptur. Our vote is our voice in our republic. Voting 
is a right, not a privilege. The women's suffrage, civil 
rights, and LGBTQ movements have made our democratic republic 
advance closer to our Constitution's aspirations.
    Unfortunately, at this time of economic and social 
reckoning and much uncertainty, our franchise is in danger. 
President Trump and his allies are trying to undermine 
confidence in absentee voting and, by association, our 
electoral system.
    Now, let me be clear, theirs is a transparent attempt to 
use every conceivable ploy to delegitimize elections and 
distort the result. We must rise above their partisan antics to 
ensure every American has equal access to the ballot and that 
those ballots are able to be filed and counted with high 
precision.
    The timing of Ohio's 2020 primary election placed Ohio's 
election in suspended animation. Our March 17 primary election 
was just days after the President declared a national emergency 
on March 13, 2020.
    As the scale of the epidemic became apparent, Ohio Governor 
Mike DeWine acted to postpone in-person voting. Unfortunately, 
this set off a chaotic series of events jeopardizing our 
fundamental right to the franchise. Voter turnout plummeted. 
Absentee ballots and early voting results were held in 
abeyance.
    The legal process to change and ultimately cancel in-person 
voting was rife with disorder. Chaos ensued as litigation 
stretched into the night. Voters and poll workers did not know 
whether the polls would be open or closed when they vote on 
primary election day.
    Eventually, the primary was rescheduled to April 28, 2020, 
with nearly 2 million voters requesting absentee ballots in a 
very confusing, mail-in, mail-back process. Unfortunately, 
despite an unprecedented surge in the number of requests, data 
compiled by FiveThirtyEight indicates voter turnout for the 
April 28, 2020, primary reached just over 20 percent, well 
below the historic average for a Presidential year. For 
example, in 2016, the primary turnout of voters was 43.66 
percent.
    This was likely due to the additional steps required to 
request a ballot, ballots arriving too late, delays in Postal 
Service processing that prevented timely delivery of ballots, 
and vast numbers of in-person provisional ballots being 
rejected out of hand.
    The cumbersome absentee ballot request process and the 
failure to automatically send ballots to people with prepaid 
return postage meant fewer voters and less participation. This 
is disenfranchisement, plain and simple.
    In addition to this flood of logistical challenges, Ohio is 
under water as a result of the increased costs. With 
unnecessarily restrictive voting laws and Republican one-party 
rule and a resistant legislature, Ohio is ensnared in the fight 
of laws purposefully designed to make voting more restrictive.
    For example, the Ohio legislature is debating H.B. 680, 
which would roll back in-person early voting and end statewide 
mailing of ballot applications for November's election. This 
will suppress the vote, and that is its intent.
    A recent study by the Brennan Center, who you will hear 
from in the next panel, estimates Ohio and its localities would 
now bear as much as $82 million in unplanned election costs 
before November.
    The CARES Act, as you mentioned, allocated $400 million for 
election grants to the States; $12.8 million was dispersed to 
Ohio. Unfortunately, these funds are inadequate for what is 
required as State and local budgets brace for major budget 
cuts.
    Mitch McConnell's Senate majority must get the HEROES Act 
over the legislative finish line with its $3.6 billion for 
State and local governments so we can't have any cutting of 
corners that will place the franchise at even greater risk.
    I applaud the United States Commission on Civil Rights, the 
bipartisan and congressionally chartered organization, for 
initiating a fact-finding mission to ensure the fall election 
is conducted with vigor. The challenge is great, but Congress 
has the tools to prevent a repeat of Ohio's primary election 
chaos and disastrous turnout.
    We must meet this real challenge to our democracy. The 
question is, do those in charge have the will? I know you do, 
Madam Chair. I hope that your Ranking Member does. So with tens 
of millions of newly unemployed and with more people taking to 
the streets, too many Americans believe their voice is 
suppressed in this one-party-rule State. We therefore have an 
even greater obligation to use every tool in our arsenal to 
administer a universal, accessible, free, safe, and fair fall 
election.
    Thank you very much, Chairwoman Fudge and Ranking Member 
Davis, for holding this critical hearing. All we ask for here 
in Ohio is a fair fight, but not one that is jury-rigged by 
one-party rule in Ohio. Thank you.
    [The statement of Ms. Kaptur follows:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairwoman Fudge. Thank you so much.
    Ms. Moore, you are recognized for 5 minutes.

STATEMENT OF THE HON. GWEN MOORE, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WISCONSIN

    Ms. Moore. Thank you so much. I want to thank you, Madam 
Chair and the members of the Subcommittee on Elections. As you 
know, Madam Chair, you are one of the first people that I 
reached out to after the catastrophic election in Wisconsin, 
and I want to thank you and the Ranking Member and Members for 
convening to have this important hearing on concerns raised 
during the Wisconsin primary election.
    I did hear the opening statement by you and the Ranking 
Member. So I just wanted to say at the outset that I don't 
think it is an either/or situation whether or not we have in-
person voting or whether we have voting with no excuse absentee 
ballot--in the case of--by mail.
    In the case of the Wisconsin election, we sought to expand 
voting by mail because we--as you have heard from 
Representative Marcy Kaptur, by April 7, we all knew that the 
pandemic was upon us, and our Governor was frantically trying 
to reschedule the election, but was foiled from doing that by 
various Supreme Court decisions.
    COVID-19 was right at its surge right around April 7. 
Dangerous conditions were predicted, and too many voters had to 
make really a serious choice between exercising their franchise 
and risking their vote. I would say, Madam Chair, that that is 
the ultimate polling test, which started out the day before our 
primary election. The Supreme Court of Wisconsin joined the 
Democratic Governor with the executive order to reschedule the 
election and ordered in-person voting to proceed despite the 
risks posed to voters and poll workers amidst the epic 
epicenter of the COVID-19 surge.
    Wisconsin was the only State to carry out its scheduled 
election during a time when all other States opted to postpone 
or to shift to all-mail balloting. Just hours before election 
day, the United States Supreme Court blocked a district court 
order extending the deadline to return absentee ballots. Both 
decisions denied State and local leaders enough time to 
implement necessary measures for conducting the election safely 
amidst the public health emergency and created mass confusion 
for voters.
    It all resulted in what Wisconsin's largest newspaper 
called ``the most undemocratic election in our State's 
history.'' In my district, which includes the State's largest 
city and where a majority of Black and Brown Wisconsinites 
live, we were already massively hit by the disproportionate 
death toll of COVID-19.
    Milwaukee's usual 180 polling places were reduced to a mere 
five sites due to an abrupt and severe shortage of poll workers 
who rightly feared for their lives and well-being and could not 
risk the danger of exposure.
    Lines stretched several blocks with voters waiting hours in 
the rain to exercise their constitutional right to vote. 
Footage was broadcast of the Wisconsin Assembly Speaker's visit 
to a rural polling site dressed from head to toe in a hospital 
gown, surgical mask, gloves, layered in PPE enviable by most of 
our healthcare workers, and giving people unfounded 
reassurances that everyone was safe.
    I too, Madam Chair, fear that my vote may not have been 
counted since I am extremely fond of in-person voting but 
decided at the very last minute to cast an absentee vote when I 
heard reports of the pandemic. And I frantically gave my ballot 
to a person at the Post Office, and I later heard that folks 
that didn't have the appropriate postmark and stamps weren't 
counted.
    My time is limited. So I just want to close by saying to 
you that Wisconsin's primary election is a chief tenet of true 
democracy, and maximizing participation without discrimination 
is important to us. We need in-person voting. We need 
opportunities to vote by mail.
    And it does require resources. It is not enough to just say 
that States and local governments need to do this, Madam Chair. 
We need resources so that we can keep polls open, give people 
same-day voting options, as well as to equip our local county 
boards with the opportunities to provide ballotmail-in ballots.
    Thank you.
    [The statement of Ms. Moore follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairwoman Fudge. Thank you, both.
    And, Members, if you need to leave, we understand, but 
thank you so much. We appreciate your testimony today. We know 
that we have some work to do clearly, and we are happy that you 
could join us today. Thank you again.
    Ms. Moore. Thank you.
    Chairwoman Fudge. I would now move to introduce the second 
panel. We will begin with Kristen Clarke, who is the president 
and the executive director of the Lawyers' Committee for Civil 
Rights Under Law. The Lawyers' Committee seeks to ensure equal 
justice for all through the rule of law, targeting, in 
particular, the inequities confronting African Americans and 
other racial and ethnic minorities.
    Ms. Clarke previously served as the head of the Civil 
Rights Bureau for the New York State Attorney General's Office. 
She spent several years at the NAACP Legal Defense and 
Educational Fund where she helped lead the organization's work 
in the areas of voting rights and election law and worked at 
the U.S. Department of Justice in the Civil Rights Division.
    Next, we have Ms. Sherrilyn Ifill, who is the president and 
director-counsel of NAACP Legal Defense and Educational Fund. 
LDF seeks structural changes to expand democracy, eliminate 
disparities, and achieve racial justice. Ms. Ifill is the 
second woman to lead the organization.
    She began her career as a fellow at the American Civil 
Liberties Union before joining the staff of LDF. In 1993, Ms. 
Ifill left LDF to join the faculty at the University of 
Maryland School of Law in Baltimore, where she spent more than 
20 years. In 2013, Ms. Ifill was invited back to the LDF, this 
time to lead the organization as its director-counsel.
    Lawrence Norden is the director of the Election Reform 
Program at the Brennan Center for Justice. He is there to 
ensure that U.S. election infrastructure is secure and 
accessible to every voter and to protect elections from foreign 
interference. Mr. Norden is also a member of the Election 
Assistance Commission Board of Advisors where he currently 
serves as the vice chair of the Election Security Committee.
    Mark Dimondstein is president of the American Postal 
Workers Union, which represents more than 200,000 employees of 
the U.S. Postal Service and approximately 1,500 employees in 
the private sector mailing industry. He began his first 3-year 
term in November of 2013. Mr. Dimondstein began his postal 
career in 1983.
    Kyle Ardoin serves as the 44th Secretary of State for the 
State of Louisiana. He was elected Secretary of State on 
December of 2018. He brings to the office more than 30 years of 
experience working in both the private and public sector.
    Mr. John Merrill serves as the 53rd Secretary of State for 
the State of Alabama. He was elected in 2014 and was reelected 
in 2018. He is also a member of the United States Election 
Assistance Commission Standards Board and currently serves as 
the chair of the Republican Association of Secretaries of 
State.
    Again, you will all be given 5 minutes for your testimony, 
and we will then follow with questions.
    Ms. Clarke, you are recognized for 5 minutes.

 STATEMENTS OF KRISTEN CLARKE, PRESIDENT & EXECUTIVE DIRECTOR, 
LAWYERS' COMMITTEE FOR CIVIL RIGHTS UNDER LAW; SHERRILYN IFILL, 
PRESIDENT & DIRECTOR-COUNSEL, NAACP LEGAL DEFENSE & EDUCATIONAL 
   FUND., INC.; LAWRENCE NORDEN, DIRECTOR, ELECTION REFORM, 
   DEMOCRACY, BRENNAN CENTER FOR JUSTICE; MARK DIMONDSTEIN, 
PRESIDENT, AMERICAN POSTAL WORKERS UNION; THE HONORABLE R. KYLE 
    ARDOIN, SECRETARY OF STATE, STATE OF LOUISIANA; AND THE 
HONORABLE JOHN H. MERRILL, SECRETARY OF STATE, STATE OF ALABAMA

                  STATEMENT OF KRISTEN CLARKE

    Ms. Clarke. Chairwoman Fudge, Ranking Member Davis, and 
members of the Subcommittee on Elections of the U.S. House of 
Representatives Committee on House Administration, my name is 
Kristen Clarke, and I serve as the president and executive 
director of the Lawyers' Committee for Civil Rights Under Law. 
Thank you for the opportunity to testify today on how we can 
ensure that States hold safe and fair elections during the 
COVID-19 pandemic.
    The Lawyers' Committee for Civil Rights Under Law, the 
organization that I lead, has been at the forefront of the 
battle for equal rights since it was created in 1963 at the 
request of President Kennedy to enlist the private bar's 
leadership and resources in combating racial discrimination.
    Simply put, our mission is to secure equal justice under 
law. We have been a leader in many of the most important voting 
rights cases in our Nation, and we also lead Election 
Protection, which is the largest and longest running 
nonpartisan voter protection program in the country.
    I am here today to sound the alarm on what we have seen in 
recent primaries, including from just two days ago when voters 
went to the polls in Georgia, South Carolina, Nevada, North 
Dakota, and West Virginia. Many States and local counties are 
simply unprepared to safely handle people voting in person, and 
several States have failed to provide requested mail-in ballots 
to voters in time for them to be cast.
    Georgia is the poster child for this dysfunction and 
disenfranchisement of African American voters, as it has been 
repeatedly. We were flooded with thousands of calls by way of 
our 866-OUR-VOTE hotline, particularly from Black voters in 
Georgia. Those complaints raised concerns about long lines, 
some that went beyond midnight, sites that opened late, last-
minute polling place changes, malfunctioning equipment, backup 
paper ballot shortages, and more.
    We also heard from voters who never received their absentee 
ballot despite the election being delayed twice. We sued to 
ensure that polling place hours were extended in Gwinnett 
County so that no eligible voter would be denied their 
fundamental right, and with partners we advocated for poll hour 
extensions in several counties.
    To put it bluntly, this was one of the most chaotic 
elections that we have seen this season. As a nation, we are 
facing one of the greatest challenges to our democracy in the 
midst of a pandemic and a recession that is disproportionately 
impacting African Americans and people of color.
    As people have taken to the street to protest the killing 
of George Floyd, Breonna Taylor, and Ahmaud Arbery, the most 
recent victims of racially violent police brutality and white 
supremacy, the President sadly has repeatedly attempted to send 
the military into communities over the wishes of State 
Governors and local mayors.
    It is critical for Congress to step in to ensure that 
neither Federal action nor veiled threats interfere with our 
most fundamental right, the right to vote. Protecting the right 
to vote is vital to our democracy because it is the right 
preservative of all rights. It empowers people to elect 
candidates of their choice who will govern and legislate to 
advance other fundamental rights.
    However, that right was threatened long before the 
pandemic. In the words of Congressman John Lewis, the Supreme 
Court stuck a dagger into the heart of the Voting Rights Act 
when it issued a 5-4 decision in Shelby County v. Holder. If we 
had section 5 in place now, it would act as a check on some of 
the eleventh-hour discriminatory voting changes that we have 
seen this season.
    Without section 5 and in the absence of any meaningful 
enforcement from the Justice Department, voters across the 
country, especially African Americans and other people of 
color, are vulnerable to being disenfranchised during the 
pandemic. Quite simply, no one should ever have to choose 
between risking their health and life and voting.
    As I explain in greater detail in my written testimony, it 
is critical for Congress to both expand options for in-person 
voting and vote by mail. Preserving our democracy hinges on 
providing sufficient funding to States for the safe and fair 
administration of elections, which requires an appropriation of 
an additional $3.6 billion on top of the $400 million allocated 
in the CARES Act.
    We strongly recommend that Congress mandate no-excuse 
absentee balloting for Federal elections this year so that any 
voter with pre-existing conditions or concerns about COVID-19 
exposure can choose to vote-by-mail. Expanded access to vote-
by-mail depends on the U.S. Postal Service being up and 
running. So it is critical that Congress provide the full $89 
billion in support requested by Postal Service leadership.
    But vote-by-mail is not an option for every voter. We know 
that there are Native American voters, for example, that live 
in remote areas or on reservations that do not receive regular 
Postal Service. For voters who must or prefer to vote in 
person, Congress should mandate that States provide at least 2 
weeks of early voting. This will provide people with 
opportunities----
    Chairwoman Fudge. Ms. Clarke, I need you to wrap up if you 
would, please.
    Ms. Clarke. Indeed. Opportunities to participate and reduce 
the risk of crowding at polling places and enable poll workers 
to have more time to sanitize equipment. I thank you for the 
opportunity to testify today.
    [The statement of Ms. Clarke follows:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairwoman Fudge. Thank you so very much.
    Ms. Ifill, you are recognized for five minutes.

                  STATEMENT OF SHERRILYN IFILL

    Ms. Ifill. Can you hear me now?
    Chairwoman Fudge. Yes, we can.
    Ms. Ifill. Fantastic. Good morning, Chairwoman Fudge, 
Ranking Member Davis, and members of the Subcommittee. My name 
is Sherrilyn Ifill, and I am the president and director-counsel 
of the NAACP Legal Defense Fund, or LDF. Thank you for the 
opportunity to testify this afternoon regarding COVID-19's 
impact on voting rights and election administration. LDF was 
founded in 1940 by Thurgood Marshall. It has been an entirely 
separate organization from the NAACP since 1957.
    Beginning with Smith v. Allwright, our successful Supreme 
Court case challenging the use of Whites-only primary elections 
in 1944, LDF has been fighting to overcome the obstacles to 
ensure the full, equal, and active participation of Black 
voters in the political process.
    Recent reports indicate that there have been over almost 2 
million confirmed cases of COVID-19 infection in the United 
States and more than 112,000 deaths. The country faces not only 
a public health crisis but also an economic crisis comparable 
to the Great Depression in severity.
    More than 40 million people have filed for unemployment 
since the start of the pandemic. The pandemic is 
disproportionately impacting Black people. The Centers for 
Disease Control and Prevention reports that while Black people 
are only 13 percent of the U.S. population, we constitute 
nearly 30 percent of all U.S. coronavirus deaths.
    Unfortunately, this pandemic is not only a public health 
emergency, and an economic crisis, it is also a threat to the 
very foundation of our democracy and its most important form of 
expression: free and fair elections.
    I will never--and we must never--forget the images that we 
saw in Wisconsin in April and yesterday in Georgia: thousands 
of mask-wearing Americans standing in staggered lines extended 
over city blocks as they waited to vote amid the most dangerous 
pandemic this country has faced in a century.
    None of them could be certain they would avoid contracting 
the deadly coronavirus and carrying it home to their loved one, 
yet they stood in line, some for hours, to exercise the 
fundamental right that the Supreme Court described 134 years 
ago as preservative of all rights.
    It has been reported that at least 71 people contracted 
COVID-19 after voting in person or working at the polls during 
the Wisconsin election, and at least one study concluded that 
those counties with more in-person voters per voting location 
had significantly higher rates of COVID-19 transmission after 
the election than counties with lower voter density.
    It was a shameful, disgraceful sight that we confined 
people to have to choose between their health and their right 
as citizens to participate and vote. But I am also compelled to 
see the powerful nobility of those people standing, separated 
from each other as best they could in Wisconsin and yesterday 
in Georgia for hours on end determined to participate in the 
political process.
    The choice facing Black voters was especially agonizing. 
Death has far too often been the consequence for Black 
Americans who insisted on exercising their full rights as 
American citizens by voting.
    LDF has in the past two months filed four cases seeking to 
remove onerous absentee voting requirements in Southern States. 
These include requirements such as those in Alabama where 
voters voting absentee must secure the signature of two third-
party witnesses or have the ballot notarized and include a copy 
of their government-issued photo ID when they mail in their 
ballot.
    We are currently still in litigation in Alabama and in 
Louisiana, where although Blacks constitute 28 percent of the 
population they have constituted 70 percent of the COVID-
related deaths.
    And we scored an important victory two weeks ago when a 
Federal District Court found that the requirement in South 
Carolina that absentee voters have a third-party witness sign 
the ballot is an unconstitutional burden given the threat of 
the COVID-19 pandemic. And our claim was specifically focused 
on the burden experienced by Black voters.
    But while we litigate cases seeking to remove absentee 
voter burdens, we also stress the importance of protecting 
those who choose to vote in person. Absentee voting cannot 
fully replace, as we saw yesterday, or come--day before 
yesterday, or come at the expense of States' accessible and 
secure in-person voting. Congress must ensure a both/and 
strategy for voting in this pandemic. It must guarantee that 
voters have the option of voting-by-mail and safe in-person 
voting.
    Congress must approach this with a thorough, urgent, and 
unrelenting determination to protect the right to vote. And we 
should remember that there is a critical need for robust 
community education to ensure that people are fully informed 
about the variety of voting options as well as the details of 
how each option works.
    These necessary changes and modifications to voting 
practices and election administration, coupled with the fear 
and confusion surrounding the COVID pandemic, creates 
circumstances that are ripe for disinformation and 
manipulation, and we have already seen our President contribute 
to that confusion with some of his tweets.
    So public education campaigns must also plan to combat 
disinformation. That is why we are gratified that the HEROES 
Act includes an additional $3.6 billion needed for States and 
local jurisdictions to implement measures that will facilitate 
accessible absentee voting and safe in-person voting. The Act 
also calls for the extension of early in-person voting, 
expanded online registration, and requires the removal of 
onerous conditions for absentee voting.
    This election is a test for our democracy, one we cannot 
fail, one we know that we cannot leave to local county 
officials. We need Congress to demonstrate leadership by 
providing the resources and direction included in the HEROES 
Act as soon as possible to ensure access to the ballot for 
every eligible voter in November.
    Thank you.
    [The statement of Ms. Ifill follows:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Chairwoman Fudge. Thank you.
    Mr. Norden, you are recognized for five minutes.

                  STATEMENT OF LAWRENCE NORDEN

    Mr. Norden. Thank you, Chairwoman Fudge, Ranking Member 
Davis, Members of the Committee and Subcommittee for this 
opportunity to testify today.
    It is now two days since the funeral of George Floyd, and 
millions of Americans are asking when their voices will be 
heard. Let's not fail these Americans when they come out to 
vote this fall.
    Obviously, COVID-19 presents a real challenge to free and 
fair elections this year. As Kristen Clarke and Sherrilyn Ifill 
have noted, in primaries from Wisconsin to Georgia just two 
days ago, we have seen closed polling places, sick poll 
workers, mail ballots never delivered, and long lines lasting 
6, 7, 8 hours. These are unacceptable and serious barriers to 
the franchise, and there is no question that they have been 
made worse by COVID this year.
    The sole bit of good news that I have to share is that 
since the outbreak in the United States, the Brennan Center has 
spoken to many dozens of election officials of both parties 
around the country, and the vast majority are working to take 
steps to ensure that we can have free, fair, and safe elections 
this fall. But the overwhelming consensus from those elections 
that we have spoken to is that they need more resources.
    The Brennan Center, based on work with those election 
officials and R Street Institute, the Alliance for Securing 
Democracy, Pitt Cyber, and election vendors has estimated that 
the additional cost to running free and fair and safe elections 
this year to be around $4 billion.
    Why is this money needed? First, to address voter 
registration. There has been a severe disruption to voter 
registration in the United States in 2020 because of COVID. In 
fact, the Center for Election Innovation and Research just had 
a report out today showing how much registration activity has 
plummeted this year.
    Government offices are closed. Registration drives aren't 
happening. Certainly, one result of this is going to be that we 
are going to see a huge move in the coming months to voters 
moving online for registration.
    Many systems around the country were not built for such 
high use of registration activity. Some States, like 
Pennsylvania, are currently building more capacity, but many 
others are going to require more resources to be able to do 
that, and they are all going to have to work to make those 
systems more secure.
    I note that already this year we have seen online systems 
overwhelmed in Georgia, Florida, and Wisconsin too often 
leading into failure of those systems. And this problem is only 
going to get worse as we approach registration deadlines around 
the country. We need to adjust for that now.
    Second, there will be an increase, of course, in mail 
voting. The arguments in D.C. about whether or not we should be 
expanding mail-in voting are detached from reality. I agree 
with Ranking Member Davis that there are many challenges to 
this increase, but it is happening. It is expanded.
    Before COVID-19, 34 States allowed for no-excuse absentee 
voting in this country. This year, 12 more have relaxed their 
requirements to allow voting [inaudible] use and during 
elections. And in the midst of the pandemic, millions of 
Americans, many, many millions are choosing this option.
    Most recently in Pennsylvania, we saw a 16 times increase 
in the number of people asking for mail ballots. In Georgia, in 
the election that just was completed on Tuesday, more than 25 
time increase in-mail voting. We are seeing these kinds of 
increases everywhere.
    The biggest question is not whether it is going to happen. 
The biggest question is, will we provide the support that 
jurisdictions need to make sure that they can handle this? If 
not, what we are going to see is a repeat of what we just saw 
in Georgia yesterday with overwhelmed offices, tens of 
thousands of voters not receiving their ballots. We cannot 
allow this to happen this fall.
    Third, of course, we must provide safe, in-person voting as 
many have mentioned. Georgia has demonstrated that we need in-
person voting as a failsafe. And, of course, there are people 
who are going to want to vote by mail. That is going to be 
their choice. And then there are others who will have no choice 
out of necessity because they need assistance. They need to be 
in the polling places.
    We need to take steps to ensure there is sufficient early 
voting to reduce crowding. We need to make sure that poll 
workers and voters alike are safe, that poll workers have 
protective equipment, that we have more of them, and that we 
have things that disposable pens when it comes to polling 
places to mark their ballots.
    Finally, we must make sure that our infrastructure is kept 
secure. All of the changes that we have talked about today, we 
need more investment to make sure that we are keeping systems 
secure. Russia, other hostile nation-states are not going to 
stop attacking our elections merely because we have a pandemic 
in this country.
    So, in conclusion, what I want to say is, yes, these are 
serious challenges that we are facing, but they are not 
insurmountable. Election officials know what they need to do, 
and Congress needs to make sure that it provides the resources, 
and it needs to do so as soon as possible.
    Thank you.
    [The statement of Mr. Norden follows:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Chairwoman Fudge. Thank you.
    Mr. Dimondstein, you are recognized for five minutes.

                 STATEMENT OF MARK DIMONDSTEIN

    Mr. Dimondstein. Well, good afternoon, Chairwoman Fudge, 
Ranking Member Davis, Members of the Committee. My name is Mark 
Dimondstein. I am president of the American Postal Workers 
Union, AFL-CIO.
    600,000 postal workers daily serve every community in the 
country, including as frontline workers during these dangerous 
times of the pandemic. Postal workers are extremely dedicated 
and proud public servants. We are serious about our oath to 
protect the privacy and sanctity of the mail. We treat your 
mail as if it was our own.
    We are trusted by the public with a 91 percent favorability 
rating, equal among Democrats, Republicans, and independents. 
We carry out the mission to ``bind the Nation together,'' 
collecting, sorting, and delivering medicine, health 
information, financial and legal transactions, census forms, 
greeting cards, letters, periodicals, pension and stimulus 
checks, e-commerce packages, and, yes, tens of millions of mail 
ballots.
    Vote-by-mail is nothing new for us. We have been handling 
the task well for generations, serving overseas military 
personnel, those on travel, and States that mandate vote-by-
mail for the tens of millions who choose to do it, from the 
current President of the United States to my mother, who voted 
her very last time by absentee ballot from a hospital bed. No 
doubt the President's ballot and my mother's vote were safely 
and timely delivered and counted.
    As vote-by-mail has been thrust into the forefront of this 
ongoing pandemic, I urge you to take into account the proven 
experience. Voting by mail works, increases voter 
participation, helps counter voter suppression, creates a paper 
trail, cannot be hacked, saves money, is private and secure, 
and is absent of any increased voter fraud.
    During this election, many will continue to be sheltered in 
place or quarantined. Seniors and those with health conditions, 
and most people, are less likely to gather in public settings. 
Poll workers are often unavailable. The threat of the further 
spread of this deadly disease is still ever present. Robust 
plans for vote-by-mail will literally make the difference on 
whether tens of millions of people will have access to the 
ballot.
    In the last several primary States, we see the difference 
vote-by-mail can make in ensuring safe, timely, and universal 
access for our most sacred, democratic right, the right to 
vote. These facts underscore that we must ensure that our 
national treasure, the public Postal Service, is on solid 
footing. The COVID-related economic crisis has deeply affected 
the Postal Service. Mail volume is severely reduced. And while 
packages have temporarily increased, this spike will not 
continue.
    As an institution that traditionally receives no tax 
dollars, a deep fall in projected revenue means that the Postal 
Service may soon be unable to carry out its mandate of 
universal service to all 160 million addresses, including when 
it comes to ballots.
    The Postal Service testified to the House Oversight 
Committee that the United States Postal Service is anticipating 
a $13 billion revenue loss directly related to COVID-19 this 
fiscal year and $54 billion in additional losses over 10 years, 
and raises the Postal Service will, quote, run out of task this 
fiscal year, end of quote, without appropriate relief from 
Congress and the administration.
    So the first condition of successful expansion of vote-by-
mail to protect our voting rights during the pandemic is to 
make sure that we stabilize the finances of the Postal Service 
in an emergency appropriation of at least $25 billion proposed 
in the HEROES Act. And that represents only part of the 
proposal from the bipartisan and Republican majority Postal 
Board of Governors.
    Our country's Founders recognize the importance of the 
Postal Service by enshrining it in the U.S. Constitution 
itself. There is no better contribution to civic life than to 
maintain and enhance our access to our hard-fought, with blood, 
sweat, and tears, our hard-fought and cherished right to vote.
    I thank the committee for allowing me to testify at this 
important hearing and, when the time is right, would welcome 
any questions. Thank you, Chairwoman.
    [The statement of Mr. Dimondstein follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Chairwoman Fudge. Thank you. Thank you so much.
    Mr. Ardoin, you are recognized for five minutes.

           STATEMENT OF THE HONORABLE R. KYLE ARDOIN

    Mr. Ardoin. Thank you, Madam Chairwoman, Ranking Member 
Davis, and Members. We appreciate this opportunity to testify 
to you. I am Kyle Ardoin. I am Louisiana Secretary of State. 
This is our opportunity to discuss the important work we are 
doing in Louisiana in these unprecedented times to ensure all 
voters have the opportunity to vote safely in a fair and honest 
election.
    Unfortunately, Louisiana is no stranger to natural 
disaster, and we have faced crises around election time before, 
such as in 2005 when Hurricane Katrina devastated New Orleans 
and the surrounding area, or when Hurricane Gustav hit 
southeast Louisiana followed by Hurricane Ike in the Southwest 
in 2008.
    However, never before have we had to deal with the perfect 
storm of election issues with cyber threats, election meddling 
attempts from foreign adversaries, and now COVID-19. Our 
previous experience with natural disaster has better prepared 
Louisiana to adjust election processes and procedures in ways 
other States may not be able to.
    Louisiana law allows for me, as Secretary of State, to 
certify that an emergency exists and request to the Governor 
that our elections be postponed. In March, we became the first 
State to change our election dates from April and May to June 
and July and later postponed further to July and August.
    Louisiana law further allows the secretary of state to 
submit an emergency election plan to the legislature where it 
must be approved by both House and Senate oversight committees, 
the full legislature, and agreed to by the Governor.
    Immediately following our decision to delay our spring 
elections, my staff began working on an emergency plan that 
would provide for safe elections in the midst of a global 
pandemic.
    The emergency election plan agreed to by our Democratic 
Governor and approved by a majority Republican legislature with 
bipartisan support establishes the following: First, an 
additional 6 days of in-person early voting. While in-person 
early voting normally takes place over a seven-day period, we 
added an additional six days to provide for the necessary 
social distancing measures.
    Second, we created an emergency COVID-19 absentee ballot 
application. Currently, Louisiana allows 11 different ways to 
request an absentee ballot. This emergency application covers 
those at higher risk for COVID-19, those subject to quarantine, 
those experiencing symptoms of COVID-19, or those caring for an 
individual that is subject to quarantine.
    And, third, personal protective equipment at every polling 
site will be available. Hand sanitizer will be provided to 
voters. Voting machines and other equipment will be regularly 
sanitized, and poll workers will be given masks and gloves.
    Our emergency election plan is a temporary response to a 
global pandemic. This plan would be applicable only for the 
July and August elections. Any changes to the processes for the 
following election would require the same process of submitting 
an emergency election plan with legislative and gubernatorial 
approval.
    Our State has benefited greatly from flexibility. Having 
the ability to adapt to whatever crisis our State faces has 
allowed us to tailor our response to the situation at hand. In 
our State's legislative session, we recently killed legislation 
that would hamper our ability to respond to crises. In a 
similar way, we as States must fight against Federal attempts 
to mandate how we run our elections under the guise of 
charitable appropriations.
    Receiving one-time funds to run elections during an 
unprecedented crisis at the expense of radically changing our 
election system is a tradeoff we are not willing to make. We 
will gladly accept Federal dollars with no strings or political 
motivations attached, and we would prefer not to have to come 
up with State matching dollars in a time of such economic 
turmoil.
    As the chief election officer for the State of Louisiana, I 
am tasked with overseeing elections, and I cannot cede control 
of our elections to politicians thousands of miles away. I am 
accountable to Louisianans, and they expect me to run elections 
in a safe, fair, honest manner, that works best for all in our 
State.
    Thank you, Madam Chairwoman, for this opportunity.
    [The statement of Mr. Ardoin follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Chairwoman Fudge. Thank you.
    And last but not at least, Mr. Merrill, you are now 
recognized for 5 minutes.

           STATEMENT OF THE HONORABLE JOHN H. MERRILL

    Mr. Merrill. Madam Chair Fudge, Ranking Member Davis, and 
members of the Committee on House Administration, thank you for 
the opportunity to address you today and discuss the importance 
of election administration in how we can work together to 
protect the 2020 election cycle and beyond.
    I am John Merrill. I have the privilege to serve as 
Alabama's 53rd Secretary of State. Since I took office on 
January the 19, 2015, we changed the paradigm for voting in the 
State of Alabama. My team and I have shattered every record in 
the history of the State for voter registration and voter 
participation through countless photo ID visits and voter 
registration events and campaigns.
    Through working with notable Alabamians, local officials, 
interested agencies, key communicators, and community leaders, 
we have worked to register more than 1,523,617 new voters since 
January 19, 2015, and now have a State record 3,597,060 
registered voters as of today. Additionally, we have broken 
every record in the history of the State for voter 
participation in the last five major elections. March 1, 2016, 
more than 1.25 million Alabamians voting breaking every record 
in the history of the State for participation in a Presidential 
primary.
    On November the 8, 2016, 2.1 million voting; December 12, 
2017, when Senator Jones was elected to the U.S. Senate, 1.3 
million Alabamians going to the polls; November the 6 of 2018, 
1.7 million Alabamians shattering the State record by more than 
500,000 voters.
    Recently on March 3rd, almost 1.2 million Alabamians went 
to the polls in spite of the nationwide COVID-19 outbreak and 
severe weather conditions coming close to breaking a record for 
our State primary. These numbers are important to the 
importance--these numbers prove the importance of participating 
in the electoral process to Alabamians, which have had a long 
history of dealing with oppressive voting laws, which were at 
one time written or reduced to eliminate minority participation 
completely in the elections process.
    We have since worked to see that it is easier than ever to 
vote in Alabama by providing free voter IDs, electronic voter 
registration through our mobile app, Vote for Alabama. Also, 
with our website, Alabamavotes.gov, and annual visits to all 67 
counties, which you can see behind me on the chart, to ensure 
that each and every eligible U.S. citizen that is a resident of 
our State is given the opportunity to become a registered voter 
and to obtain a photo ID.
    Though the political climate in Alabama is much different 
than that in New York, California, Colorado, it is important 
that States are given the opportunity to run their own 
elections, free from Federal interference, because what works 
in one State may not work in all. We have enjoyed the 
opportunity to visit the polls on election day. We want to 
continue to do so. We vote in person on the average of 96 
percent of the people that vote vote in person.
    Our office is greatly appreciative of the recent funds that 
have been given to us by the Congress, but all 1,980 polling 
sites in the State of Alabama will be open on election day. 
Those funds will be used for different purposes. We can talk 
about those during the question-and-answer time if you would 
like to. We have made it easier for people to vote absentee.
    The State of Alabama's code gives me the opportunity 
through title 17-11-3 the opportunity to assign a reason to 
vote absentee. We have done that, so we have made it easier for 
all voters to be able to exercise that right. We want to 
continue to make it easier to vote and harder to cheat. We also 
want to note that having significant opportunities for fraud 
increased through mail-in voting have been increased.
    We have seen that most recently in California in 2016 where 
83 ballots were mailed to one California address where just two 
people lived there. In Alabama, prior to the passage and 
implementation of our reform absentee voting law, we witnessed 
109 absentee ballots being mailed to the mother of a mayoral 
candidate in Brighton, Alabama, in 2016 and another instance 
the same year where 119 absentee ballots were mailed to an 
abandoned home in Wilcox County.
    It should be noted that of the six voter fraud convictions 
we have had in Alabama since I have been secretary, five of 
them were related to absentee voting. It also should be noted 
that between 2012 and 2018, 28.3 million mail-in ballots went 
unaccounted for.
    I ask you to consider what the cost could be for States to 
adopt this cost. Ours would increase from basically $16 million 
per election to more than $60 million per election and only 4 
percent of our voters actually vote absentee.
    I want to thank you for your time today for the work you do 
for our people and for the great work you do for this, the 
greatest country in the history of the world.
    [The statement of Mr. Merrill follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairwoman Fudge. Thank you very much. I thank all of our 
witnesses for their testimony today.
    It is now time for our members to ask questions. I would 
begin with Mr. Butterfield. You are recognized for 5 minutes.
    Mr. Butterfield. Let me just thank you very much, Chair 
Fudge, for convening this hearing today. And thank you to the 
witnesses for your testimony. I know it is a little awkward to 
testify in this virtual environment, but be assured it is also 
awkward for us as well. But we are making this work, and 
hopefully we will have a good hearing today.
    You know, our goal must be to guarantee the absolute right 
of every voter to vote, whether they are a Democrat, 
Republican, Independent, Libertarian, Green, or Constitution. I 
think our charge is to make sure that every voter has the 
absolute right to vote.
    And so, Madam Chair, I am just so disappointed that many of 
our Republican colleagues just cannot embrace a vote-by-mail 
idea or vote-from-home idea. I think it is absolutely necessary 
in this environment.
    I think that some of our colleagues may be trying to 
prevent a large turnout in November. I hope that is not the 
case. I was looking at a poll this morning, a Gallup poll, 
which said that 64 percent of those polled favor a vote-by-mail 
system--64 percent. That is almost two out of three: 83 percent 
Democrats; 68 percent of Independents want it; 40 percent of 
Republicans wanted it.
    So I think we ought to begin to reconsider any opposition 
to vote by mail and to really consider how we can get it done. 
And so thank you to the witnesses for your testimony. The 
Lawyers' Committee for Civil Rights is a very special 
organization to me. Many years ago, when I was a young lawyer 
in my hometown, it was the Lawyers' Committee that came in and 
filed a lawsuit that challenged the city for having 23 miles of 
unpaved streets in the African American community, and those 
streets are now paved. And it was because of the Lawyers' 
Committee.
    I always like to make reference to that when we have these 
hearings. Also, there were virtually no African American 
elected officials in my community or in my congressional 
district. And it was NAACP Legal Defense Fund that came in and 
filed a voting rights lawsuit, and now we have dozens and 
dozens of elected officials. So thank you to those two 
witnesses and to the other witnesses as well.
    To the Secretary of State from Louisiana, you made a 
statement a few moments ago that we cannot cede election 
authority to D.C. politicians. I am a D.C. politician. I am an 
elected official of 750,000 people, and I would like to get 
more clarity about the meaning and the intent of that 
statement, please, if you would help me.
    Mr. Ardoin. Yes, sir, Congressman, thank you for that 
question. In a previous testimony that I had with Senators 
Klobuchar, Wyden, and others with regards to this very issue, 
during a normal Louisiana election, less than 4 percent of all 
ballots are cast via absentee by mail balloting, and to surge 
our absentee ballots to a 100 percent paper is neither prudent 
nor practical for us. If we were forced to do so, as Secretary 
Merrill was stating, we would go from a $6 million election 
cost to over $12.6 million of which----
    Mr. Butterfield. Suppose the Federal Government provided 
100 percent of the cost, Mr. Secretary? Suppose the Federal 
Government provided 100 percent of that cost, would that be 
helpful?
    Mr. Ardoin. If it covered 100 percent of the cost? I don't 
know that it could cover 100 percent of the cost.
    Mr. Butterfield. But that is our legislation, to provide 
100 percent of the cost of the November election for every 
State in the country. And if you have some financial concerns, 
I think we need to set that aside because we proposed to pay 
100 percent of the cost.
    Let me go to the other secretary from Alabama. Sir, you, in 
essence, said that the States need to run their own elections 
free from Federal interference.
    Mr. Merrill. Yes, sir.
    Mr. Butterfield. Those were code words back during the 
voting rights movement, code words for States' rights, and I 
pushback whenever I hear that. Is that your meaning?
    Mr. Merrill. Oh, yes, sir----
    Mr. Butterfield. Let me just finish. Do you feel that the 
Federal Government has no right under any circumstances to get 
involved in State elections?
    Mr. Merrill. Yes, sir, I agree with that, unless you see 
that someone is violating the trust and confidence of the 
process or that they are intentionally trying to reduce the 
participation efforts of any one individual or any group of 
individuals. That is not happening in our State.
    As a matter of fact, I just shared empirical data with you 
to prove that it is not happening, and we want to continue to 
do what we are doing. We do believe----
    Mr. Butterfield. But you said under some circumstances--you 
are conceding that, under some circumstances, the Federal 
Government would have some role in the State if voting rights 
were being denied or affected?
    Mr. Merrill. Yes, sir. If that was necessary, but in the 
case, just like in the Shelby case, the Supreme Court realized 
that that was not necessary at this time to continue that 
oversight, and that is the reason why they ruled the way they 
did, and that is the reason why we were able to change a voting 
site from a community center to a church.
    Mr. Butterfield. You do know that section 5 in the case 
that came out of your State was not dismantled by the Supreme 
Court. What the Supreme Court did was to invite the Congress to 
update the formula that gives life to section 5, and so there 
is a role for the Federal Government----
    Chairwoman Fudge. Mr. Butterfield?
    Mr. Butterfield. Yes.
    Chairwoman Fudge. Mr. Butterfield, your time is up, but I 
will say that, Mr. Merrill, your interpretation of Shelby is 
not accurate.
    I will now move to Ranking Member Davis, you are recognized 
for five minutes.
    Mr. Davis of Illinois. You know, thank you, Madam Chair.
    And thank you to all the witnesses. I am sorry to the two 
secretaries--and my colleague, Mr. Butterfield is a good friend 
of mine--we know that there is a role that the Federal 
Government can play. Obviously, we want to make sure that every 
single person, as Republicans, Democrats, but most of all 
because we are Americans, let's make sure that everybody gets a 
chance to cast that vote.
    And I commend what is happening in your State based on your 
statistics, Secretary Merrill, that you are continuing to 
increase the voter turnout. We had record voter turnout in the 
States that are--in Wisconsin, in particular, and in Georgia, 
two States that were mentioned during this testimony.
    I like that. I want to see continued record turnout. I 
certainly hope we have it in 2020, and what we are saying here, 
once again, is that we want to make sure that our States are 
able to address those turnout issues and make sure that they 
give everybody a chance to vote.
    So, with that, we know there is a role for the Federal 
Government to play, Mr. Secretaries, or you guys wouldn't be 
here today talking to Representatives of the Federal 
Government. I appreciate your participation.
    I got a couple of yes-or-no questions just for both 
secretaries. Secretary Ardoin and Secretary Merrill, I am going 
to go through a few yes or noes, and I will give you a chance 
to expand at the end. We will start with Secretary Ardoin each 
time.
    Do either of your States have in place infrastructure to 
support a Federal election entirely by mail?
    Mr. Ardoin. No, sir.
    Mr. Davis of Illinois. Mr. Merrill.
    Mr. Merrill. No, sir.
    Mr. Davis of Illinois. Do either of you think it is 
possible for all 50 States to convert to an all-mail election 
by November?
    Mr. Ardoin.
    Mr. Ardoin. Absolutely not.
    Mr. Davis of Illinois. Mr. Merrill.
    Mr. Merrill. There is no doubt it's impossible, and that is 
based on experts from the States that do it best.
    Mr. Davis of Illinois. What percentage of the ballots cast 
in your State in 2018 were through the mail?
    Mr. Ardoin. .9 percent.
    Mr. Davis of Illinois. Mr. Merrill.
    Mr. Merrill. Almost 4 percent, Congressman.
    Mr. Davis of Illinois. Mr. Ardoin and Mr. Merrill, both of 
your States allow those with a disability or illness to vote 
absentee. Is that correct?
    Mr. Ardoin. Yes, sir.
    Mr. Merrill. Yes, sir. And we passed a law in 2019 to give 
them permanent disability access through absentee.
    Mr. Davis of Illinois. Those with a disability can also 
vote in person if they feel that is easier for them too, 
correct?
    Mr. Ardoin. Correct.
    Mr. Davis of Illinois. Mr. Merrill.
    Mr. Merrill. Yes, sir, Congressman.
    Mr. Davis of Illinois. Do both of your States have in place 
protections against unlimited ballot harvesting?
    Mr. Ardoin. It was just passed this legislative session 
unanimously and with lots of bipartisan support.
    Mr. Davis of Illinois. Mr. Merrill.
    Mr. Merrill. Yes, sir, Congressman, that law has been on 
the books for several years.
    Mr. Davis of Illinois. Have both of you received your 2020 
supplemental federal funds?
    Mr. Merrill. Yes.
    Mr. Davis of Illinois. Mr. Ardoin.
    Mr. Ardoin. Yes, sir.
    Mr. Davis of Illinois. I heard you answer, Mr. Merrill, 
already. You said yes.
    And are you putting these funds to use to help administer 
elections in light of the COVID-19 panic?
    Mr. Ardoin.
    Mr. Merrill.
    Mr. Merrill. Yes, sir. We are exclusively, and we have a 
detailed plan that we would like to share with the members if 
they would like to see it.
    Mr. Davis of Illinois. Okay. If you would like to submit 
that for the record, we will take that and make sure that it 
gets submitted, sir.
    Mr. Merrill. Yes, sir, we will.
    [The information follows:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Davis of Illinois. Any documentation too, Secretary 
Ardoin, you are more than welcome to have it for the record 
too.
    Mr. Ardoin. Will do. Thank you.
    [The information follows:]

                   ******** COMMITTEE INSERT ********

    Mr. Davis of Illinois. Do either of you believe you need 
any more federal mandates to administer your elections ahead of 
the November election?
    Mr. Ardoin. Absolutely not.
    Mr. Davis of Illinois. Mr. Merrill.
    Mr. Merrill. No, sir, I do not think so.
    Mr. Davis of Illinois. Okay. Secretary Ardoin, my 
understanding is that you have already put in place an 
emergency plan for your upcoming State elections. Can you tell 
us what that plan looks like in a very quick manner so I can 
get one more question to Mr. Merrill?
    Mr. Ardoin. Yes, sir. Congressman, we extended early voting 
from seven days to an additional six days. So 13 days total. We 
created a separate absentee by mail application process for 
several reasons that you might have the COVID concerns that you 
have quarantined, taking care of a family member who is 
susceptible, and for the most susceptible population. And, 
additionally, we have made certain that we will have all the 
personal protective equipment available to voters and to the 
poll workers.
    Mr. Davis of Illinois. Mr. Merrill, how do you see COVID-19 
impacting elections in the future?
    Mr. Merrill. Congressman, it is difficult to say. That 
would call for speculation and conjecture on my part. I do 
think it is important to make sure that we take those factors 
that have been introduced in this cycle and make sure that they 
are considered whenever we are developing any plan for the 
future. But to say exactly what will happen and what should 
happen would be inappropriate.
    Mr. Davis of Illinois. Well, thank you.
    And as I have one second left, Mr. Dimondstein, thank you 
very much for the hard work that your men and women at the 
United States Postal Service do every year to make our 
elections fair and to make sure every vote is counted.
    I yield back.
    Chairwoman Fudge. Thank you.
    Mr. Aguilar, you are recognized for five minutes.
    Mr. Aguilar. Thank you, Madam Chair. I appreciate the 
opportunity and appreciate our panelists here today.
    It should be the goal of this Committee to remove the 
barriers that prevent Americans from voting. Right now, that 
means making sure voting is safe in the midst of a global 
pandemic that has killed more than 110,000 in our country.
    Despite the claims made by the minority on this Committee, 
there is no significant risk of voter fraud associated with 
ballot assistance. Instead, we know that these methods allow 
more people to safely participate in our democracy. Recently, 
the minority crafted a 12-page report that goes from logical 
leap to logical leap to conflate a small possible risk of abuse 
with likely voter fraud. I find this conclusion to be untrue 
and unsupported by any of the tenuous points that they 
presented in their report.
    This 12-page report does not give a single example in which 
California has experienced ballot return fraud, yet they keep 
coming back to this issue. We all know that examples of voter 
fraud are exceedingly rare, especially when compared to the 
tens of millions of votes that are cast each year, but 
something that we don't hear a lot about, especially from the 
President, even though, he, himself, votes by mail, I would 
like to direct this to Ms. Clarke and Mr. Norden.
    I would love to hear more about the processes election 
administrators go through to ensure the integrity of the ballot 
processes.
    Ms. Clarke. Thank you for that question, Congressman. In 
our view, there are already safe mechanisms in place that 
ensure that absentee ballots are cast safely, securely, and 
with integrity. The rules vary State by State. There are some 
States that have in place absentee ballot verification 
requirements. And we are deeply concerned that those rules and 
restrictions are not administered in an unfair and 
discriminatory manner. There are stiff penalties on the books 
that serve as a deterrent to fraud.
    And as you note, the instances of fraud are exceedingly 
rare and used as pretext to impose burdens that prove unfair to 
voters. So, in our view, it is about opening up access; that is 
the challenge that we are up against. And fraud is, indeed, 
exceedingly rare in our democracy.
    Mr. Norden. Thank you, Congressman, for the question. I 
will just add, I agree that mail ballot fraud is exceptionally 
rare. The Brennan Center has calculated that the rate of mail 
balloting fraud is lower than the rate of Americans to be 
struck by lightning. That is true for mail ballot, and it is 
true for in-person voting.
    We know how to do mail balloting securely. We have had mail 
balloting since the civil war. The military has voted since 
that time by mail. And States have a variety of steps that they 
take to prevent fraud and to detect and capture any kind of 
attack on the system. Very common step that every State has is 
they have a secrecy envelope for mail ballots. Election 
officials use that secrecy envelope to verify the identity of a 
voter. They do that with personal information or a signature 
often.
    States have adopted ballot tracking the same way you would 
track a package from Amazon. States have software now that 
allows the voter and the election official to track that ballot 
every step of the way and to prevent any kind of tampering or 
discarding of the ballot. And it also allows, to the extent 
that any ballot has been called into question, an election 
official to remove that ballot if they have concerns about it.
    I would finally say, one of the real benefits of mail 
ballots is that they are hand-marked paper ballots. And, of 
course, we are dealing with very real cybersecurity threats 
that the intelligence agencies have warned us about. With a 
paper ballot, we can do an audit afterwards to make sure that 
the machines that are tallying those votes are doing so 
accurately.
    So I think there is a lot of opportunity for ensuring that 
our systems are as secure as possible.
    Mr. Aguilar. And I agree. I think we would all agree. There 
are instances where there is voter fraud. We need to do 
everything we can. Recently, and I would just put this on the 
radar for the Chair and the Ranking Member, it has been 
reported that police officer Derek Chauvin is a--voted in the 
Florida election while being a Minnesota police officer.
    So I think in all of these cases where there is voter 
fraud, even though it is rare, we need to do everything we can 
to call attention to it and to prosecute those individuals who 
are committing of those crimes.
    With that, thanks so much, Madam Chair.
    Chairwoman Fudge. Thank you very much.
    Mr. Loudermilk, you are recognized for five minutes.
    Mr. Loudermilk. Thank you, Madam Chair.
    I appreciate the opportunity to participate in this forum, 
especially right after Georgia's election, which clearly did 
have some issues, which was brought up. I don't think it is 
constructive, though, to immediately cast blame on that there 
is voter suppression or that there was ill-intent in what went 
on in Georgia because, first of all, there is no evidence of 
that. And, second of all, if we are going to fix problems for 
other States in coming elections, this is a good time to look 
at what problems were faced in Georgia.
    Just a little background. Georgia has 159 counties. Our 
State law requires that each county has their own elected 
election--their own election official, which runs the elections 
in every county, from everything of sending out the absentee 
ballots that were requested, to running the polling places, to 
training the poll workers, and recruiting the poll workers.
    The Secretary of State provides the tools to do that and 
trains the trainer. Of the 159 counties in Georgia, yesterday, 
150 of those counties reported no significant problems 
whatsoever across the State. Seven counties did encounter 
problems. Seven of those counties rectified their problems very 
early on and were able to reduce the lines that were quite long 
and continued on and reported that the system worked very well.
    Of the two counties, 80 percent of the problems we saw were 
in one county, Fulton County. And as we go through what 
happened in the county was a series of events. There was 
nothing nefarious that went on. If there was any voter 
suppression in that county, then it was--it would have been 
done by the local county officials, which are all Democrats at 
this point.
    So there was no voter suppression involved in this that we 
could tell. The State is investigating to see what happened so 
we can rectify the problems. We do know that the county 
election officials did not get the absentee ballots to the 
vendor in time to get out and then didn't notify those voters 
affected that they weren't going to receive absentee ballots.
    There were last-minute changes to polling precincts. Why 
were those changed? Because the county officials and the fire 
departments made the decision they couldn't use certain fire 
departments as polling places because of the fear of COVID-19 
spreading to the firemen. Churches, which traditionally were 
voting precincts, had decided they could not have their 
churches open as voting precincts because of the fear of COVID-
19.
    These are things that should have been addressed early on, 
and they weren't. Poll workers were brought in at the last 
minute because, quite frankly, in most of our counties, the 
poll workers are elderly, which are in a critical class, and 
they did not feel comfortable coming in to work. The problem 
was the county tried to do all of the poll worker training 
online instead of face-to-face training to where they could 
ensure that there was proficiency.
    So the voting machines worked fine. We have voting machines 
that do produce a paper ballot, and you get to verify the paper 
ballot. I voted in-person early voting. And you get to verify 
that. So you do have the paper ballot as an audit trail that 
that is the way that you voted.
    The issues we must address, those in Georgia, I think it 
was a good test being a primary election before we get into 
November that we can actually rectify these problems. The 
legislature may look at giving more power to the secretary of 
state to intervene and rectify problems if the local officials 
are not able to resolve them themselves, but it is not 
productive to immediately jump on the idea that there was 
something nefarious that went on in the election system. We are 
not going to fix the problems that way.
    I do appreciate something that was just said, is that we 
have been doing voting by mail for many years, and it has 
worked well. I will agree with that. The reason it has worked 
well is because it has been run at the State level, and every 
State is different. What I am objecting to and what the two 
secretaries of state and most of the secretaries of state I 
talk to are objecting to, is the Federal takeover of the 
election system and the mandates.
    So I laid that out. One question I have for Secretary 
Ardoin. You have mentioned that you have made some changes to 
be able to handle your elections better during the COVID 
crisis, and as we saw in Georgia, there is still some changes 
that we are going to have to make.
    Are there any adjustments that you plan to make for 
election day in Louisiana based on some of the information you 
have seen or what happened in Georgia?
    Mr. Ardoin. Well, basically, what we are trying to do is 
increase our number of commissioners available to assist voters 
with social distancing and to be able to access the ballot in 
terms of in-person voting, especially during the extended early 
voting days.
    On election day, with the absentee ballot expansion program 
that we have put forth and for our 65 and older absentee 
program, we have seen a large increase in the number of 
applications for absentee voting. We feel comfortable with that 
process because we are able to verify signatures and addresses. 
Our concern is that if we don't have that process in place, 
then we would probably be mailing ballots to addresses that 
people no longer live at.
    I think you can take the quote from ProPublica in a March 
24 piece that said, quote----
    Chairwoman Fudge. Could you please wrap up? His time has 
expired.
    Mr. Ardoin. Yes, ma'am. Among the possible downsides of a 
quick transition are increased voter fraud, logistical snafus, 
and reduced turn out among voters who move frequently or lack a 
mailing address. That is important to the process that we make 
sure that the voter is at the address where the ballot is being 
sent.
    Chairwoman Fudge. Thank you so much.
    Mrs. Davis, you are recognized for five minutes.
    Mrs. Davis of California. Thank you very much, Madam Chair. 
Thank you for having me for this panel today.
    Secretary Merrill, you said in your testimony that you have 
encouraged anyone who is concerned about contracting or 
spreading COVID-19 to apply for and cast an absentee ballot 
through the July primary runoff under the physical illness or 
infirmity excuse.
    Mr. Merrill. Yes.
    Mrs. Davis of California. But many public health experts 
are acknowledging that there is a good chance that we will see 
a resurgence of COVID-19 in the fall. So I am wondering, for 
one thing, what would success in this area look like for you? 
What are you looking for? If you are giving people the excuse--
and, as I will mention in a second, they still have to go 
through a number of hoops--but what would that look like to 
you? What would be success that you have changed this?
    Mr. Merrill. Yes, ma'am. Yes, ma'am. They just have to 
continue to do what they have been doing for years as far as 
applying for an absentee ballot and then successfully 
submitting that, of course, with their qualified photo ID. And 
in doing that, I would say that success would mean that we 
didn't have issues related to people attempting to do that and 
being able to do so successfully. And so far our numbers have 
indicated that that is exactly what is happening.
    As of yesterday, more than 20,500 absentee ballot 
applications had been requested, which is not an inordinate 
number, but it is higher than you normally see for a runoff. 
But if we are still where we are today as we move toward 
November, we will calculate what we need to do in order to 
provide this type service for our voters when we go to the 
general election in November.
    Mrs. Davis of California. So can you commit then to 
extending this expansion of absentee ballot eligibility for the 
November election if you believe, in fact, that it was 
successful?
    Mr. Merrill. Yes, ma'am. And one of the things that needs 
to be understood is that the reason that I am able to designate 
that particular excuse provision for our voters is because the 
Governor has declared a state of emergency in Alabama. Now that 
will be expiring sometime in the next month or so. And if she 
extends that, then I will be in a position to do that as well 
based on her----
    Mrs. Davis of California. Yeah. Well, one of the reasons 
that you have a lot of specifications in terms of excuses, as I 
understand it, you want the elections to be more secure----
    Mr. Merrill. Yes.
    Mrs. Davis of California [continuing]. But can you explain 
to me, what is the difference between having somebody who works 
10 hours have an excuse and somebody who works 9 hours not have 
an excuse? And, I mean, how much time do you have to have 
people spending to be able to slice and dice, you know, exactly 
the excuses that people are presenting? How do you know that 
people might be fearing COVID versus----
    Mr. Merrill. And the answer to the question is we don't. As 
a matter of fact, one of the things that I think is time for 
our legislature to do is to revisit the excuse provisions that 
are a part of the absentee ballot process. We actually provided 
support for a bill that we wrote in 2017 that was carried by an 
African American senator from Birmingham to change and enhance 
the absentee process which resulted in a successful passage of 
that legislation in 2019, but in 2017, as we started that 
process, part of that bill was to eliminate the provisions for 
excuses to be offered.
    Mrs. Davis of California. So perhaps doing away with those 
because, in addition to allowing for COVID-19, I mean, you are 
also requiring that people find a notary. So it has to be 
notarized. Is that correct?
    Mr. Merrill. Yes, ma'am. They could have two witnesses. It 
does not have to be----
    Mrs. Davis of California. They could have two witnesses. So 
we are doing social distancing now, so why would you put people 
in a position to be in close contact with another two people 
signing--having to look at a signature together with that 
person as well as a notary? I mean, it sounds to me like you 
are adding some steps for people that are unnecessary.
    Mr. Merrill. No, ma'am. Matter fact, people have not had a 
difficult time protesting things that have been important to 
them in the last few days. So if they are interested in voting, 
they will be interested in contacting their neighbor to secure 
the signature that is required in order for their ballot to be 
counted for the candidate of their choice.
    Mrs. Davis of California. And you need probably a number of 
people to be able to check all these things. So perhaps you 
could put that effort in another way.
    I wanted to ask you because you have a lot of numbers in 
front of you, in your head, I am sure. I appreciate that.
    Mr. Merrill. Yes, ma'am.
    Mrs. Davis of California. But you said there were six 
convictions for voter fraud in Alabama. How many ballots were 
cast during that time?
    Mr. Merrill. Oh, several million.
    Mrs. Davis of California. Is this the last election you are 
talking about?
    Mr. Merrill. Oh, no, ma'am. No, ma'am. That is since 
January 19, 2015, when I became----
    Mrs. Davis of California. Okay. How many ballots?
    Mr. Merrill. Oh, millions.
    Mrs. Davis of California. Millions. And what percentage of 
those ballots cast--what percentage, you know, resulted in 
convictions for voter fraud?
    Mr. Merrill. Well, we have had six convictions on voter 
fraud, two elections overturned, and one elected official 
removed because of what occurred in those elections processes, 
but this is the point that I wanted to make sure that we made. 
It is very important to remember that, whether there was one or 
whether there were 10,001 convictions, it is just like refusing 
the right to allow someone to vote or register to vote; if you 
are making it difficult for them to participate in the process, 
that should never be tolerated, and voter fraud should never be 
tolerated.
    Mrs. Davis of California. Of course. Of course. None of us 
here, I can assure you, sir----
    Chairwoman Fudge. Mrs. Davis, your time is expired.
    Mrs. Davis of California [continuing]. Nobody on this panel 
believes in having the fraud, but you need to look at that 
percentage. And also what is different between an uncast ballot 
and an unaccounted for ballot. A lot of people choose not to 
vote in the end for a variety of reasons.
    Thank you, sir.
    Chairwoman Fudge. Thank you, Mrs. Davis.
    Mr. Raskin, you are recognized for five minutes. Thank you.
    Mr. Raskin. Thank you, Madam Chair.
    Ms. Ifill, I want to come to you because I am very 
concerned about what I saw in Georgia. It seemed like there was 
a lot of chaos there. People were blaming it on high turnout. I 
would hope we would not consider high turnout a problem. That 
is what we are seeking. But today I have heard a lot of 
criticism of vote by mail. And is vote by mail uniquely 
susceptible to fraud?
    Ms. Ifill. Not particularly, Representative Raskin. And I 
think it is really quite alarming just hearing the conversation 
in which we have talked about money, we have talked about how 
much things might cost, we have talked about fraud, and we 
actually have not really focused, at least in terms of hearing 
the secretaries of state of two States with which I am in 
litigation at the moment, talk about people and particularly 
talk about the large African American populations in each of 
their States who are susceptible to COVID and particularly 
African Americans who suffer from preexisting health conditions 
and disabled populations in their State. And we really haven't 
heard either secretary address what that means and what it 
means for those voters.
    So when we talk about these absentee convictions that 
Secretary Merrill is talking about, six convictions he says. 
And I don't know the nature of those, but that is actually very 
few as has been pointed out in comparison to votes cast. And 
both of the secretaries have talked about how few in their 
States tend to vote absentee. We are here having this 
conversation because we are in the midst of a global pandemic.
    Many more people will want to vote absentee, and we saw 
that in Georgia. We saw how many people didn't receive the 
ballots. We saw how many people came out to vote, but found 
that their polling places were changed. We understand, as we 
heard earlier from Representative Loudermilk, that many people 
who work in polling places are elderly and, therefore, will 
call out and won't want to work on election day and expose 
themselves to COVID.
    And I haven't heard what are the comprehensive plans to 
deal with that and to protect the population that is most 
vulnerable and who want to participate fully in the political 
process. Identifying six voter fraud convictions over a number 
of years simply doesn't cancel that out.
    Mr. Raskin. So I understand that voter registration rates 
have plummeted because of COVID-19. I consider that really 
alarming. What can be done to deal with that problem?
    Ms. Ifill. So, first of all, I also want to correct the 
record because Secretary Merrill talked about the increase in 
voter registration in the State of Alabama. I just want--and he 
also talked about the Federal role. I do want to point out that 
the State of Alabama has to enter into memorandums of agreement 
with both the Department of Justice and with the NAACP in 2014 
and 2015 for their failure to comply with registration 
provisions in the National Voter Registration Act.
    This is exactly why you need civil rights litigations. This 
is why you need the Federal authority, and so, to extent they 
are touting those numbers, we should be very clear that it 
required intervention to make sure that in public benefits 
offices and in the DMV, they were doing the registration that 
they need to do.
    We need more online registration. We don't want people to 
have to engage in-person in any of these offices if they don't 
have to and especially if they are disabled and especially if 
they are particularly vulnerable to COVID infection. And so we 
want to increase the possibility of people being able to 
register online. We want to increase the possibility of people 
being able to absentee vote. We want to increase the 
possibility of them being able to absentee vote without having 
to engage in physical contact with a notary.
    We have elderly people who are separated from their 
children. Their children don't want to come see them because 
they want to make sure that they are safe, and yet they have to 
have two witnesses sign their absentee ballots in Alabama, one 
witness in Louisiana.
    Mr. Raskin. I want to shift to Kristen Clarke.
    Ms. Clarke, it is at the heart of American self-
understanding that we believe in the right of every citizen to 
vote and to have his or her vote counted and to be part of 
self-government through the system of elections, and yet, at 
the same time, when you look at it historically, there has 
always been tremendous opposition and resistance to letting 
everybody vote, and there have been a whole series of very 
fancy rationales put up to explain why you really need to own 
property in order to vote so you are invested in the community 
or you really need to achieve certain levels of literacy before 
you could vote or you needed to live in a certain place long 
enough before you could vote.
    How do you explain this paradox that we believe very 
strongly in the right to vote and yet there are always people 
ginning up some justification for trying to keep other people 
from casting their ballots?
    Ms. Clarke. I have to say that the opposition that we are 
seeing to absentee balloting is illogical and difficult to 
understand because this has been a feature of our voting system 
that extends back to the 1800s when people in the military were 
allowed to vote by mail.
    We send ballots overseas to those serving the United States 
proudly. We send ballots overseas to citizens who may be living 
temporarily abroad without issue or without concerns about 
fraud. So we can send ballots down the street to ensure that 
people during the middle of a global pandemic that is impacting 
Americans from every corner but disproportionately people of 
color, we can send ballots down the street to ensure that they 
have voice this season.
    Mr. Raskin. I yield back.
    Thank you very much.
    Chairwoman Fudge. Thank you all very, very much. I really 
think I pretty much heard everything I need to hear today. I 
want to thank all the witnesses.
    Mr. Davis, do you have any closing comments?
    Mr. Davis of Illinois.
    Thank you, everyone. I appreciate the opportunity to be 
here. We have heard from our witnesses. Thank you for your 
testimony.
    And before I yield back, Madam Chair, I ask unanimous 
consent to enter into the record three items: a letter from 14 
secretaries of state regarding Federal funding, a letter from 
the Niskanen Center, and a statement from Representative 
Loudermilk on one of his staffers who lives in Maryland 
receiving multiple live absentee ballots to his address.
    And I yield back.
    Chairwoman Fudge. Without objection.
    [The information follows:]

                   ******** COMMITTEE INSERT ********

    Chairwoman Fudge. Let me just close by saying this. I have 
listened to this hearing, and I am so disappointed. You know, 
there is a little thing, Mr. Secretaries, called the 
Constitution of the United States that allows us to do what we 
are doing today. Whether you like it or not, that is the law.
    Secondly, I think it is just so misleading to continually 
talk about fraud. It is just nothing but a front; it is just 
foolishness. So you would punish the many to catch one. That is 
not the American way for anyone. You know, we talk about 
cheats. You talked about 83 ballots going to one address. If 
your office didn't catch that, I think that your office may be 
not as competent as it ought to be.
    You didn't get 83 ballots from those people. So I think 
that, at some point, we have to all do what is right for the 
people of this country, and we cannot continue to spread these 
misleading and false statements about this widespread fraud. It 
doesn't exist. You have no proof of it. You talk about it, and 
you have not one iota of proof to support it. You know, the 
Georgia thing--you know, in law, we have a saying that the 
thing speaks for itself, and the Georgia situation does speak 
for itself.
    So I would say nothing more about that but to say that, if 
we all want for every American to exercise their unfettered, 
unabridged right to vote, we need to stop this foolishness now 
and do whatever it takes to make sure that every American has 
the right to vote.
    Panelists, I thank you all so much for being with us today. 
I hope that you continue to do the good work that the people of 
this Nation expected you to do. That includes the secretaries 
as well. I am sure they are well-meaning people, but I think 
that you need to be honest with yourself and honest with the 
people that you represent.
    Without objection, this hearing is adjourned. Have a great 
day everybody.
    [Whereupon, at 2:46 p.m., the Subcommittee was adjourned.]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    
</pre></body></html>
